No. 20-6387
IN THE SUPREME COURT OF THE UNITED STATES
Darrin B. Woodard,
Petitioner,
v.
United States of America,
Respondent
CERTIFICATE OF SERVICE
I, Shira Kieval, an attorney appointed to represent the Petitioner under the
Criminal Justice Act, hereby certify that, on March 1, 2021, I served the Reply in
Support of Certiorari on all parties required to be served under Supreme Court Rule
29.4(a). I completed service by causing a copy of the documents to be enclosed in an
envelope and be delivered to Federal Express for delivery within 3 calendar days, and
by causing an electronic version of the documents to be transmitted via email.

[See attached service list.]

/s Shira Kieval
Shira Kieval
Assistant Federal Public Defender
Counsel of Record for Petitioner

Service List
Reply in Support of Certiorari
United States v. Woodard, No. 20-6387
`

Elizabeth B. Prelogar
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
SupremeCtBriefs@usdoj.gov

Counsel for Respondent
Michael R. Dreeben
O'Melveny & Myers LLP
1625 Eye Street, NW
Washington, DC 20006
mdreeben@omm.com
Counsel for Amicus Curiae Due Process Institute

2

